31-581,6

mu

JN THE

1143mue Court of tSjr United j&tateg

Supreme Court, U.S.
FILED

SEP 2 7 2021
OFFICE OF THE CLERK

mNMJZTmm, pro. ae*
v*
DNC ; & ah|
&&pmn4&&t

On Petition for Writ of Gertiorsn lo die Ubitied
StamftBklMet Court for dm

Dteufct- of Massachusetts
PSTHTON FOR WRIT OF
CBRTXOIIARI '

HopddPetlm
Aberdeen Am* iS

Gmkndg^immm
"MiW-MST..

QUESTIONS PRESENTED

1. Are Federal judges at liberty to unilaterally issue rulings and orders based on personal political
preferences, in addition to race and class bias, when the relevant facts and laws are not favorable
to those personal preferences?

2. Does the court's undue delays, contrary to the Code Of Judicial Conduct, in order to render a
request for a preliminary injunction moot, thereby avoiding the merits and facilitating dismissal,
qualify as a dismissal on the merits for purposes of satisfying the doctrine of res judicata?

3. Can the doctrine of Prudential Standing shield defendants from accountability for conduct the
congress has determined to be felony crimes potentially punishable with imprisonment and
substantial civil penalties?

4. Does the media have the legitimate right or responsibility to filter political messages and
platforms for appropriateness to be seen and heard by the general public, particularly when
filtering is influenced by the conflict between the interests of American voters to be fully
informed and the commercial interests of the media to increase profits and revenues from
campaign advertising funds of candidates?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[X| All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
see attached

pcj ■)

RELATED CASES

Ronald Peden v. DNC, no. 1:21-cv-10360-PBS, US District Court, District
of Massachusetts, judgement entered March 23, 2021.
i ype text nere

Ronald Peden v. DNC etal, no. 1:20-cv-11019-PBS, US District Court
District of Massachusetts, judgement entered Oct. 30, 2020.

4 <eS

(S>

RONALD PEDEN.
Plaintiff - Appellant.
v.
DEMOCRATIC NATIONAL COMMITTEE. DNC; TOM PEREZ. Chairman. DNC: SEEMA
NANDA. f/k/a CEO. DNC: PUBLIC BROADCASTING SERVICE. PBS: PAULA KERGER.
President and CEO. PBS: JUDY WOODRUFF. Anchor, Managing Editor. PBS: MARK D.
SHIELDS. Political Analyst. The PBS Newshour: GREATER WASHINGTON
EDUCATIONAL TELECOMMUNICATIONS ASSOCIATION. INC., owner of WETA
TELEVISION: SARA JUST. Executive Producer. PBS Newshour: DANA ROBERSON.
Executive Producer. PBS Newshour: COMCAST CORPORATION. Parent of NBCUniversal;
BRIAN L. ROBERTS. Chairman and CEO of Comcast: NBC UNIVERSAL MEDIA. LLC;
STEVE BURKE. Chairman. NBCUniversal Media: JEFF SHELL. CEO. NBCUniversal: MARK
LAZARUS. Chairman. NBCUniversal Broadcast. Entertainment & Lifestyle. Sports and News:
CESAR CONDE. Chairman. NBCUniversal News Group: NOAH OPPENHE1M. President.
NBC News: ANDREW LACK, Chairman. NBCUniversal News Group: JENNIFER SUOZZO,
Executive Producer. NBC Nightly News: MATT FRUCCI. Executive Producer. NBC Nightly
News: JOHN REISS. Executive Producer. Meet the Press: CHARLES DAVID TODD. "Chuck".
Political Director. NBC News: NATIONAL AMUSEMENTS. INC.. Holding Company of
ViacomCBS: SHARI ELLIN REDSTONE. President. National Amusements. Inc.:
VIACOMCBS. Parent Company of CBS News and Face the Nation: ROBERT MARC
BAKISH. President and CEO. ViacomCBS: GEORGE CHEEKS. Chairman and CEO. CBS
Entertainment Group: COLUMBIA BROADCASTING SYSTEM. CBS: SUSAN ZIRINSKY.
President and Sr. Executive Producer, CBS News: NORAH O'DONNELL. Anchor and
Managing Editor, CBS Evening News: MARY HAGER. Executive Producer, Face the Nation:
CATHERINE REYNOLDS. Producer. Face the Nation: JILLIAN HUGHES. Producer. Face the
Nation: ELIZABETH CAMPBELL, Producer. Face the Nation: JAKE MILLER. Producer. Face
the Nation: THE WALT DISNEY COMPANY. ("Disney"), owner of Disney Media Networks,
part of ABC: BOB IGER. Chairman and CEO. Walt Disney; ALAN HORN. Co-Chairman. Walt
Disney Studios: AMERICAN BROADCASTING COMPANIES. INC.: JAMES GOLDSTON.
President, ABC; GEORGE STEPHANOPOULOS, Chief Political Correspondent, ABC News;
DAVID MUIR. Anchor. Managing Ed.. ABC WorldNews Tonight.
Defendants - Appellees.

c

TABLE OF CONTENTS

1

OPINIONS BELOW

2

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

INDEX TO APPENDICES

APPENDIX A

U.S Court of Appeals for the First Circuit, no 21-1334

APPENDIX B

U.S. Court of Appeals for the First Circuit, no. 20-2156

APPENDIX C

U.S. District Court, District of Massachusetts
no. 1:21-cv-10360-PBS

APPENDIX D

U.S. District Court, District of Massachusetts,
no. 1:20-cv-11019-PBS

APPENDIX F

7
8

CONCLUSION

APPENDIX E

3

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES
Gary Johnson, et al., v. Commission on Presidential Debates, et al., 16-7107
Council for Employment v. WHDH, 580 F.2d 9, 12 (1st Cir., 1978).

p..

t-

P-

Eastern Railroad Presidents Conf. v. Noerr Motor Freight, 365 U.S. 127 (1961) p
Associated Press v. United States, 326 U.S. 1, 7 (1945)

p-

Allied Tube v. Indian Head, Inc., 486 U.S. 492 at 504 (1988),

p-

55.

Type text here
STATUTES AND RULES
38 Stat. 730 (Pub. Law 63-212) section 26.

P'f*

MA Code of Judicial Conduct Rule 2.6 (A)

P-

MA Code of Judicial Conduct Rule 2.2

P-:

OTHER

<4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

c

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,

T$P^@i$ih®i§ed.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[X] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: June 30> 2021____
, and a copy of the
order denying rehearing appears at Appendix A
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

First Amendment freedom of speech
Seventh Amendment right to a jury trial.
Fourteenth Amendment equal protection of the laws.
Sherman Antitrust Act, 15 U.S.C. §§ 1-7
38 Stat. 730 (Pub. Law 63-212) section 26

3

STATEMENT OF THE CASE
This matter was filed in the Federal District of Massachusetts, in early May 2020, by plaintiff
Ronald Peden, seeking a preliminary injunction in the Democratic party presidential primary, as provided
for under anti-trust law [55 Stat. 730 (Pub. Law 63-212) section 26], pursuant to the refusal of defendants
to acknowledge plaintiffs intent to be considered for participation in the process, after having been so
informed in June 2019 (see, peden2020.com, or go to https://www.youtube.com/watch?v=evH89RDpej8).
Plaintiff additionally made anti-trust claims of conspiracy and monopoly under the Sherman Act, as well
as Freedom of Speech and Equal Protection rights infringements under the US Constitution against
defendants.
The Massachusetts Federal District Court took no action on any part of plaintiffs claim, including
the request for a preliminary injunction, until after the Democratic party convention had selected its
nominee and the primary process was already completed at the end of October 2020 when the complaint
was dismissed in its entirety by Chief Justice Patti B. Saris.
Justice Saris' dismissal was reasoned on a lack of prudential standing, as well as on DC Circuit
Court of Appeals rulings in Gary Johnson, et al, v. Commission on Presidential Debates, et al, 16-7107,
First Circuit rulings in Council for Employment v. WHDH (1978), and the US Supreme Court in Eastern
Railroad Presidents Conf. v. Noerr Motor Freight (1961) that “foreclosed” on commercial claims made
under the Sherman Act in matters that are exclusively political. In addition, plaintiffs Constitutional
claims were dismissed against these private defendants as not being the product of state action
(Memorandum And Order of Dismissal, October 30, 2020).
An appeal to the First Circuit was dismissed as not having been filed timely, and a subsequent
refiling by plaintiff in the District Court also alleging Sherman Act prohibitions against conspiracy and
monopoly was also dismissed by Justice Saris under the doctrines of prudential standing and res judicata.
Given the proximity of the First Circuit Court of Appeals to the District Court, sharing the same
physical location, plaintiff has no confidence in the independence or objectivity of that Court to decide
>/.

the matter contrary to the corrupt influence of Justice Patti Saris, given the political and social import of
the matter and the magnitude of such a contrary outcome nationally. Plaintiff therefore prays for review
by this Supreme Court of the United States.

1. Political preference
By declining to act on plaintiffs complaint in a timely manner Justice Saris appeared to
predetermine a favorable result to the defendants in this matter. Subsequent rulings guaranteed a judgment
for defendants regardless of the facts and the law suggesting a contrary result, such as this court's holding
in Allied Tube v. Indian Head, Inc. that “private actors,” like these defendants, are “presumed to be acting
primarily on [their] own behalf” and not in the public interest, due to revenues and profits accruing to
corporate defendants and shareholders unaccountable to the general public, and under procedures and
guidelines established outside the purview of public deliberation, 486 U.S. 492 at 504 (1988), Also
ignored were this court's holdings in Associated Press v. United States, 326 U.S. 1, 7 (1945) on
restrictions to free speech.
The judge's undue delays and contrary rulings make clear that she is partial to personal political
loyalties to the Democratic party and its eventual nominee, the current president. Moreover, the
contradictory unwillingness to hold defendants accountable for violations of constitutional rights as
private actors, while at the same time denying accountability for violations of private commercial
prohibitions as public actors, evidences a clear bias and inability of Justice Saris to be objective and
impartial.
Most outrageous is the appearance of a potential quid pro quo from the District Court that involves
financial consideration from wealthy corporate media defendants for her guarantee. The denial of
plaintiffs motion to disqualify herself similarly places the federal courts in a most unflattering light of
not only being subject to political influence, but of being corrupt and immoral.

2. Res Judicata
The District Court improperly dismissed plaintiffs claim on the grounds of res judicata (Order of
Dismissal, March 7, 2021, p.3). Res Judicata, however, assumes a case has been fairly heard and litigated.
The actions of Chief Justice Patti B. Saris to evade the merits of this case with her unduly prejudicial
refusal to recognize plaintiffs request for injunctive relief, as provided under the Sherman Act, contrary
to Rule 2.6 (A) of the MA Code of Judicial Conduct requiring cases “to be fairly heard according to law,”
and expressly rejected by the Chief Justice in denying plaintiffs Motion To Disqualify of September 8,
2020, instead represents an obvious desire to deny plaintiff that opportunity to be fairly heard in a jury
trial, as provided under the statute as well as the Seventh Amendment. Plaintiff has been unfairly
prejudiced by the lack of diligence on the part of Judge Saris.

3. Lack of Prudential Standing Ruling Facilitates Felony Criminal Conduct
The imposition by congress of significant civil as well as criminal penalties for defendants, upon
conviction, is clear indication of congressional intent to not allow prohibited commercial conspiracy and
monopoly conduct to go unaddressed.

Nonetheless, Chief Justice Saris, under the doctrine of

prudential standing, unilaterally excused defendants from unlawfully conspiring to monopolize against
plaintiff and in favor of their preferred candidate and private commercial interests, felony crimes
potentially punishable with significant incarceration and civil penalties under the Sherman Anti-trust Act
which properly focuses on the misdeeds of defendants. The District Court (as well as the First Circuit
Appeals Court) have exploited the fact that plaintiff was without counsel in their desire to dispose of the
matter in favor of defendants, contrary to Rule 2.2 of the Massachusetts Code of Judicial Conduct for
judges to be fair and impartial.

4. The media as a filter of political candidates and messaging
There is no requirement under the Unites States Constitution or under any legislation enacted by
congress that mandates political candidates for the presidency be first qualified by the private interests of
the commercial media in order to stand for or be considered for that office. The complete refusal to even
acknowledge plaintiffs candidacy, for reasons that include an insufficiency of money accruing to the
revenues and profits of these private defendants, amounts to an unlawful exercise of monopoly power
against plaintiffs voice of dissent for purposes of financial gain, as well as an arbitrary expansion of
constitutional requirements to participate in the election and violations of free speech and equal protection
guarantees.

REASONS FOR GRANTING CERTIORARI
Granting certiorari is important for affirming the relevance of America's constitution and federal
laws to accomplish the very object of the three co-equal branches in a government of the people, for the
people and by the people, as well as for the myriad of reasons that similarly go to the foundations of our
democracy, not the least of which is the combination of the judiciary and the press as a political faction
being exactly what this government was constructed to prevent, recognized as a major threat to its
continued existence.
Additional important reasons for granting certiorari include:
1. The necessity of Americans to believe in free and fair elections, a belief severely undermined by
the conduct of judge Patti B. Saris and the Democrat party in this election;
2. The importance of dissent in our democracy;
3. The proper role of campaign funds in determining candidate viability to participate in national

elections;
4. The custom of prioritizing the pecuniary interests of private corporations over the rights of the

voting public to be fully informed in selecting their representatives;

7-

5. The implications for infringement of equal protection guarantees via the reliance upon campaign
donations as a presumed barometer of candidate popularity, where substantial and increasing
economic inequality significantly advantages wealthy and resourceful communities to promote
candidates advocating in their interest, and as well disadvantages financially depressed groups by
artificially suppressing advocacy on behalf of communities lacking the necessary disposable
dollars to comparably articulate their favor for candidates and platforms/policies in their interest.

CONCLUSION
More than anything this case represents a composite of the many issues driving America towards its
imminent rupture: exponentially increasing inequality, institutional and systemic race and class bias,
political and judicial corruption, as well as equal access to justice in the courts. For these numerous
reasons of grave importance to the continuation of our experiment in popular government in this critical
moment of American history, petitioner prays his Writ of Certiorari is granted.

Respectfully submitted, September 22, 2021

n
Ronald Peden, pro se
25 Aberdeen Ave., #3
Cambridge, MA02138
617-497-9082
ronpeden @ gmail.com

8.

